<html>
<title> - S. Hrg. 108-386 NOMINATION OF DAVID W. ANDERSON</title>
<body><pre>[Senate Hearing 108-386]
[From the U.S. Government Printing Office]


 
                                                        S. Hrg. 108-386

                    NOMINATION OF DAVID W. ANDERSON

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

   CONFIRMATION HEARING OF THE NOMINATION OF DAVID W. ANDERSON TO BE 
                 ASSISTANT SECRETARY FOR INDIAN AFFAIRS

                               __________

                            OCTOBER 22, 2003
                             WASHINGTON, DC



                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)





                 U.S. GOVERNMENT PRINTING OFFICE

90-177                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001.




                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Anderson, David, nominee to be assistant secretary--Indian 
      Affairs, Department of the Interior........................     8
    Bennett, Audrey, president, Prairie Island Indian Community, 
      Welch, MN..................................................     6
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Coleman, Hon. Norm, U.S. Senator from Minnesota..............     3
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota........     5
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     2
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     2
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............    10
    Smith, Hon. Gordon, U.S. Senator from Oregon.................     2
    Taylor, Louis, chairman, Lac Courte Oreilles Band of Lake 
      Superior Chippewa, Hayward, WI.............................     5
    Thomas, Hon. Craig, U.S. Senator from Wyoming................     2

                                Appendix

Prepared statements:
    Anderson, David (with attachment)............................    20
    Bennett, Audrey..............................................    17
    Taylor, Louis................................................    18


   NOMINATION OF DAVID W. ANDERSON TO BE ASSISTANT SECRETARY, INDIAN 
                                AFFAIRS

                              ----------                              


                      WEDNESDAY, OCTOBER 22, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
106, Senate Dirksen Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Thomas, Smith, Murkowski, 
Inouye, Johnson, and Dorgan.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Welcome to the Committee on Indian Affairs 
hearing on the President's nomination of David Anderson to be 
Assistant Secretary for Indian Affairs.
    Before proceeding, we have a brief video to show to the 
committee, and if somebody could go ahead and roll that, we 
will watch it first.
    [Video presentation.]
    The Chairman. Thank you for that clip. That is a very 
impressive and inspiring film, Mr. Anderson, and perhaps even a 
more important statement about what can be done if you take 
charge of your own life, and also the responsibility of trying 
to help other people, and I certainly commend you for that.
    On Monday the members received the committee memorandum, so 
the committee is well aware of your background and many 
accomplishments. The job for which you have been nominated is 
one of the most important and probably the most difficult job 
in the Federal Government, at least in my view. But I believe 
the President has made the right decision and chosen wisely in 
nominating you.
    In addition to the usual problems in running a nationwide 
bureaucracy aimed at alleviating a lot of suffering in Indian 
country, there are additional challenges like the Cobell v. 
Norton Trust Fund lawsuit, substance abuse problems in Indian 
communities, which you are well aware of, and the ever-present 
need to assist tribes with the challenges they face.
    I think I am on solid ground when I say that I do believe 
you are the first nominee to head up the BIA to be a publicly 
traded on the NASDAQ, and I think your experience will serve 
you well in the years to come.
    And with that I will refrain from asking if you brought any 
barbecue samples today, by the way.
    I would like to turn to my colleague, Senator Inouye, for 
his statement now.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Mr. Chairman, I am pleased to join you 
today in welcoming the President's nominee, Dave Anderson, to 
serve as Assistant Secretary for Indian Affairs in the U.S. 
Department of the Interior. I look forward to hearing from Mr. 
Anderson as to his vision for the important position he has 
been nominated to hold, and I wish him all of the luck and good 
fortune.
    Thank you, sir.
    The Chairman. Thank you.
    Senator Thomas, did you have a statement?

   STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I am just glad to 
be here. I am glad you are having this hearing. This certainly 
is an important position. I have met with Mr. Anderson 
yesterday. We need to fill this vacancy that has been there, 
certainly, and there are other things that need to be done. I 
am pleased to have someone with this sort of background in this 
job. I think there are some new ideas that need to be 
instituted in what we are doing here, and I think we have an 
opportunity to do that. So I look forward to hearing from the 
witnesses. Thank you.
    The Chairman. Senator Smith, are you ready?

    STATEMENT OF HON. GORDON SMITH, U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Just as with 
Senator Thomas, I had the privilege of meeting the nominee, Mr. 
Anderson, yesterday and found him personally engaging, story-
inspiring, and commend the President for picking a man who both 
personally and professionally can serve as a fabulous role 
model to our Native American brothers and sisters. So I am 
happy to be here in support of this nominee.
    The Chairman. Thank you.
    Senator Johnson, did you have an opening statement?
    Senator Johnson. Yes; Thank you, Mr. Chairman.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Mr. Anderson and Chairman Taylor, 
President Bennett, welcome to the committee. As you probably 
know, my home State of South Dakota is home to nine Indian 
reservations. I am proud to represent Lakota, Nakota, and 
Dakota Nations. My tribal leaders wish to congratulate Mr. 
Anderson on his nomination and invite him to come to South 
Dakota Indian country.
    The Great Plains tribes hold 27 percent of the individual 
Indian money accounts over 67,000, more than any other region. 
In terms of land ownership records, the Great Plains tribes 
hold 36 percent of all land title documents, 37 percent of land 
owner interests, and 33 percent of the Nation's trust 
allotments in tribal tracts. As such, I very much appreciate 
your critical attention to tribal and individual Indian trust 
needs.
    I am not proud to point out that four of the five poorest 
counties in all of America are located on South Dakota Indian 
reservations. Despite years of Federal neglect, my tribal 
constituents believe in the Federal Government's treaty and 
trust obligations. They take their relationship with the 
Federal Government very seriously, and I am hopeful Mr. 
Anderson, and I know that he will, will do the same.
    You have a daunting task ahead of you. I want to work with 
you so that our tribes and tribal constituents can have hope 
for the future.
    I also want to close by taking this opportunity to thank 
Aurene Martin for her service as acting assistant secretary. 
Ms. Martin thoughtfully took on her acting duties with grace 
and with diligence. I congratulate her on her efforts.
    I want to thank my colleague, Senator Coleman, as well, for 
participating in this hearing today.
    And, Mr. Anderson, good luck on your confirmation.
    The Chairman. Thank you.
    And before we proceed with Senator Coleman's introduction, 
Mr. Anderson, I understand your family is with you here today. 
Would you like to introduce them to the committee, if you 
would, please?
    Mr. Anderson. My dad is a Choctaw Indian from Idabel, OK, 
and my mom is a Lac Courte Oreilles Ojibwa from Hayward, WI.
    I have my sister and her husband, Dr. Rick St. Germane, 
from the Lac Courte Oreilles Tribe; and my wife Kathy and son 
James, who works with us in the Life Skills Center and his 
wife; my brother Philip; and my sister's two boys.
    The Chairman. We are very happy that you are here.
    Mr. Anderson. And also we have our tribal chairman, Louis 
Taylor, from the Lac Courte Oreilles Tribe, who will be making 
a statement, and also Al Trepania, a representative of the 
Great Lakes Inter-Tribal Council.
    The Chairman. Very good. Thank you for being here.
    First, Senator Dorgan, we were just going to hear the 
introduction. Did you have a statement before?
    Senator Dorgan. No.
    The Chairman. Okay. We will go ahead and proceed with our 
colleague, Senator Coleman, from Minnesota, to introduce Mr. 
Anderson.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman.
    Chairman Campbell, Senator Inouye, members of the 
committee, it is my high honor to introduce a good friend, a 
great Minnesotan, and a real American hero, David W. Anderson, 
to the committee this morning.
    Mr. Anderson, or Famous Dave, as he is known in our home 
State, stands before you today as the President's nominee to 
serve as Assistant Secretary of the Interior for Indian 
Affairs. I can assure you there is no better man for the job. 
He is a great business leader, a humble and remarkable public 
servant, and, finally, a barbecue extraordinaire. And I can 
tell you this guy knows how to make a pretty mean stack of 
ribs; there is no question about that.
    Mr. Anderson's credentials are beyond compare. As founder 
and chairman of the successful nationwide restaurant chain 
Famous Dave's, he knows how to run a big operation and get 
things done. His business ventures alone have created over 
18,000 new jobs. Ernst & Young, NASDAQ, and USA Today have all 
recognized him as Minnesota's emerging entrepreneur of the 
year. There is no question, ladies and gentlemen, this guy is 
good. He is a beacon of hope. Certainly our Native American 
brothers and sisters need a beacon of hope. America needs a 
beacon of hope. And that is what Dave Anderson is all about.
    Few people understand the issues facing the Native American 
community better than Mr. Anderson. He himself is a Native 
American and a proud and active member of the Chippewa and 
Choctaw Tribes, and the President recently appointed Mr. 
Anderson to his Board of Advisers on Tribal Colleges and 
Universities.
    You are fortunate to have such a stellar nominee before you 
today. As far as Federal appointments go, this isn't exactly 
the easiest job. I think the chairman reflected that in his 
opening statement. There is no question that the next Assistant 
Secretary for Indian Affairs has some heavy lifting to do, some 
hard work ahead. Some might shirk from such a post, but that is 
not the kind of guy Dave Anderson is. Let me get straight to 
the point: The Bureau of Indian Affairs [BIA] needs this man.
    God blessed Dave with great business success, but also 
called him to serve others. Mr. Anderson has been true to his 
faith. He has committed his life to public service and making a 
difference in the lives of his fellow man. In Minnesota, Mr. 
Anderson is far more famous for his charitable works than his 
restaurants. If I were to list all the good deeds he has done, 
we would be here forever; and that is even in Senate time. But 
I will mention a few.
    Every year he celebrates Thanksgiving and Christmas with 
Minneapolis and St. Paul's poorest, providing over 400 families 
with a healthy holiday meal. He supports a number of 
initiatives at the Minneapolis American Indian Center. One of 
these, the Golden Eagles program, provides over 300 Minnesota 
Native American kids with meaningful after-school activities. 
Mr. Anderson is also a leader at the American Indian Housing 
Corporation, which helps approximately 200 Native American 
families a year find a home. And he puts his money where his 
mouth is. Overall, he has given over $6 million to Native 
American causes.
    Now you can see why so many, including this Senator, call 
this man a hero. There is no question that Dave Anderson has 
been doing the Lord's work. Now it is time to give him a shot 
at helping Uncle Sam do his.
    Members of the committee, thank you for the honor of 
introducing my friend, David Anderson.
    The Chairman. Thank you, Senator Coleman. And you are 
certainly welcome to stay throughout the hearing. Or if you 
have another commitment, we understand, and you certainly can 
be excused.
    I think you are right, I think the BIA needs Mr. Anderson 
much more than he needs the job, and thank you for that nice 
introduction.
    We will now hear from Louis Taylor, chairman of the Lac 
Courte Oreilles Tribe from Wisconsin; and from Audrey Bennett, 
chairwoman of the Prairie Island Community, too; and finally 
from our nominee, Dave Anderson.
    And, by the way, for those who are interested, we are going 
to convene the business meeting right after the hearing so we 
can vote on Mr. Anderson's nomination today.
    Senator Dorgan. Mr. Chairman.
    The Chairman. Yes.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
                             DAKOTA

    Senator Dorgan. Prior to hearing from the first two 
witnesses, I'd like to make very brief comments, I don't want 
to interrupt Senator Coleman's presentation; I know he is ready 
to make it.
    You have heard me many times say we have a full-blown 
crisis in health care, housing, and education on Indian 
reservations. Not much has changed over the 15 or 20 years that 
I have been involved in these issues with you and others. I am 
going to support this nomination. I think Mr. Anderson is an 
extraordinary individual, and I wish him well and want to work 
with him.
    The Chairman. Thank you.
    Ms. Bennett, why don't you go ahead and proceed?
    Oh, excuse me. I think on my list here I had Mr. Taylor 
first.
    Go ahead.

 STATEMENT OF LOUIS TAYLOR, CHAIRMAN, LAC COURTE OREILLES BAND 
             OF LAKE SUPERIOR CHIPPEWA, HAYWARD, WI

    Mr. Taylor. Boozhoo, boozhoo. It is good to be here today. 
I am Louis Taylor, Chairman of the Lac Courte Oreilles Tribe. I 
would like to introduce a few people that came with me today. 
Russ Barber, vice chairman of the Lac Courte Oreilles Tribe; Al 
Trepania. He has already been introduced. I would like him to 
stand up again. He is president of the Great Lakes Inter-Tribal 
Council, 11 member tribes from the State of Wisconsin and past 
chairman.
    I will tell you a little bit about our reservation now, if 
I could.
    The Lac Courte Oreilles Tribe is located in Northwestern 
Wisconsin, near the Town of Hayward in Sawyer County. Our 
reservation is comprised of approximately 74,000 acres, with 
the tribal membership at 5,531. Lac Courte Oreilles has the 
third largest membership of the 11 tribes in Wisconsin.
    Some of the services the Lac Courte Oreilles Tribe provides 
its community include a Head Start program, K-12 school system, 
community college, road construction and maintenance, fire 
department, EMT service, social services, emergency shelter, 
halfway house, public radio station, medical services, elderly 
nutrition sites, and youth centers.
    Additionally, the tribe owns and operates a cranberry 
marsh, grocery store, gas station, resort, construction 
company, casino, and credit union.
    Although we have made some great accomplishments in recent 
years, largely due to a modest gaming establishment, there are 
still areas of significant need on the reservation The family 
per capita income on the reservation in 1999 equaled $24,600 
per year, with the tribe's seasonal adjustment unemployment 
rate of 20 percent.
    Contrary to popular belief, our tribe and many other tribes 
do not distribute per capita payments to its members, as we are 
almost always operating with a budget deficit and rely on grant 
moneys in order to provide basic services and jobs for our 
tribal members. Even with our ongoing challenges, there has 
been steady growth at Lac Courte Oreilles, and we will continue 
our efforts for the benefit of our tribal members for 
generations to come.
    The Lac Courte Oreilles Tribal Governing Board is the 
governing body of the Band and I, as chairman, am pleased that 
David Anderson has been nominated by President Bush to serve as 
the U.S. Department of the Interior's Assistant Secretary for 
Indian Affairs. I am extremely proud that a tribal member of 
Lac Courte Oreilles has been nominated to serve the tribal 
governments and the United States in this important position.
    I am honored to be here today and would like to thank 
Chairman Ben Nighthorse Campbell and the U.S. Senate Committee 
on Indian Affairs for the invitation to speak.
    As I grew up on the reservation and followed suit and 
became chairman, I noticed we put a lot of children through 
school, and they go out into the world and some never come 
back. That is good, you know, they sought their own way through 
life, and that is fine. But Dave is a big success and we are 
very proud of him, and whenever you call on him, he comes back 
and is constantly returning favors back to his reservation from 
which he came, and I am very proud of that. Not very many 
people do that.
    So thank you.
    [Prepared statement of Mr. Taylor appears in appendix.]
    The Chairman. Thank you.
    Ms. Bennett.

 STATEMENT OF AUDREY BENNETT, PRESIDENT, PRAIRIE ISLAND INDIAN 
                      COMMUNITY, WELCH, MN

    Ms. Bennett. Good morning, Mr. Chairman and members of the 
committee. My name is Audrey Bennett. I am president of the 
Prairie Island Indian Community. We are located in Minnesota, 
along the banks of the Mississippi River, in the southern part 
of the State.
    It is an honor to be here on behalf of our tribal council 
and tribal members to speak in support of President Bush's 
nomination of David Anderson to the position of Assistant 
Secretary, BIA.
    In addition to serving our tribal community as its 
president, I am the treasurer of the National Indian Gaming 
Association and the immediate past chairperson of the Minnesota 
Indian Affairs Council. I have been involved in tribal politics 
much of my adult life and know full well the challenges we as 
native peoples face in this country.
    Our cultures are eroding with the passing of time. Land 
issues threaten our sense of community and many tribes continue 
to struggle for economic development capable of sustaining 
their governments. And many of our children are not getting the 
education they need to succeed in this world, while others are 
succumbing to today's most sinister social ills.
    The BIA, for all its faults, remains a critical source of 
addressing and helping meet these challenges. As such, the BIA 
is deserving of leadership that reflects its significance and 
the magnitude of its challenges at hand. We believe Mr. 
Anderson can satisfy this role, and we fully support his 
nomination.
    Throughout his life, Mr. Anderson has pursued the American 
dream for his family and his people. Along the way he has 
experienced numerous personal and professional setbacks, but 
they only sharpened his resolve. In this way, his life is quite 
similar to the struggles and triumphs of Indian people 
throughout this country. He is a testament to what can be 
accomplished through hard work and dedication, and he is an 
inspiration to our young people.
    As a Minnesota tribe, we have witnessed many of Mr. 
Anderson's accomplishments. We have seen firsthand his 
commitment to improving the lives of Native Americans on and 
off the reservation. To this day he can be found offering 
guidance to Native American teens at the Life Skills Center for 
Leadership in Minneapolis, an organization he founded and helps 
finance. His work in tribal gaming helped build a foundation on 
which a number of tribal communities throughout the Country now 
are beginning to thrive, including the Mille Lacs Band of 
Ojibwa and the Lac Courte Oreilles Tribes where he is an 
enrolled member and a formal CEO.
    His successes with the Lac Courte Oreilles has heralded by 
President Reagan's Commission on Indian Reservation Economics. 
As a entrepreneur, Mr. Anderson has demonstrated a keen insight 
for business, substantiated by his more than 80 Famous Dave's 
restaurants, spanning some 20 States. Today, in Minnesota and 
in many other places, he is virtually a household name.
    Mr. Anderson also is no stranger to the public policy. He 
is a graduate of Harvard University Kennedy School of 
Government and has served on numerous public service positions, 
including the Wisconsin Council on Minority Business 
Development, the National Task Force on Reservation Gaming, the 
Advisory Council for Tribal Colleges and Universities, and most 
recently the American Indian Education Foundation.
    In a recent editorial, the St. Paul Pioneer Press described 
Mr. Anderson as a generous man, giving of his time and his 
fortune to help young native people and a broader community. 
That same editorial also questioned his thinking for wanting to 
take what the paper described as one of the most challenging 
and complicated jobs in Washington. Perhaps it is rare to find 
someone with Mr. Anderson's blend of real-world experience, 
education, and desire to do good who is willing to take on what 
some believe is an impossible assignment.
    There is no question that leading the BIA is a formidable 
task, but it is not insurmountable. It can't be because there 
is too much at stake if we allow it to fail. As a Washington 
outsider, we believe that Mr. Anderson will bring a fresh 
perspective to numerous issues that have plagued the BIA for 
decades, and we believe a source of frustration for tribes and 
numerous administrations alike.
    Mr. Anderson is worthy of this opportunity and capable of 
meeting the enormous challenges before him. We urge you to 
accept his nomination and confirm him to the position of 
Assistant Secretary, BIA.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to testify in support of Mr. Anderson's nomination.
    [Prepared statement of Ms. Bennett appears in appendix.]
    The Chairman. Thank both of you for appearing.
    Now we will hear from the nominee. Dave, if you will come 
up to the table there. Just go ahead and proceed at your own 
leisure.

     STATEMENT OF DAVID ANDERSON, NOMINEE TO BE ASSISTANT 
     SECRETARY--INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Anderson. Mr. Chairman, in the tradition of all our 
native people, we have always been a spiritual group of people, 
and I would like to begin this with a prayer, so I ask for your 
indulgence. If we could all stand.
    The Chairman. That is fine.
    Mr. Anderson. Dear Heavenly Father, we come here before 
you, creator of all things, and we come here humbly, asking for 
your presence here, and we ask that today that you give us all 
wisdom and guidance, and especially I ask for your wisdom and 
your guidance as I begin this journey. There are many things 
that we don't have answers for and many things that sometimes 
we have a tough time making a decision about, but I know that 
you will be with us and you will be guiding us. And I ask for 
your protection over our President of the United States. I ask 
for your guidance for our Senators, our legislators, and also I 
ask for your loving, protective hand and healing hand to be 
over all of our Indian tribes and our tribal leaders. As 
America's first people, we have always been a spiritual people, 
and today I come to understand the meaning of faith. So as I 
begin this journey, I ask that you be with me, I ask that you 
give me guidance, and this truly is a remarkable, wonderful 
country that we all live in, and we thank you for that in Thy 
precious name. Amen.
    The Chairman. Thank you. Some of us around here believe if 
we made more decisions by the good book and fewer by the law 
book, we would be a better Nation. Why don't you go ahead and 
proceed?
    Mr. Anderson. I want to thank the Senate committee for the 
opportunity to appear here before you this morning regarding 
your consideration of my nomination by President Bush to be 
Assistant Secretary for Indian Affairs. I feel both humbled and 
honored to be considered for this important position.
    My father is an enrolled member of the great Choctaw Nation 
and was born and raised on the red earth of Idabel, OK. My 
mother is an enrolled tribal member of the Lake Superior Band 
of Lac Courte Oreilles Ojibwa located in the beautiful north 
woods of Hayward, WI. Both of my parents were raised in BIA 
schools and met at Haskell, which is kind of fortunate for me 
that they met. And my dad, being a good old southern boy, when 
they got married, used to haul my mom down south every weekend 
until she learned how to cook southern. So I think that is 
where some of the cooking passion comes from in my family. I 
was born and raised in Chicago, but I spent my summers on the 
Lac Courte Oreilles Reservation in northern Wisconsin and 
later, some of my professional life, working for the tribe.
    Throughout my life I have served tribes in the business and 
commercial development of their resources, and now I look 
forward to being able to serve at this level. As has been 
mentioned, most of my life I think I have always wanted to be 
in business. I have pretty much shied away from tribal 
politics, but I find myself always having to support something 
in some way, shape, or form. But some time ago I realized that 
I had to change if things were going to be different, because 
not all throughout my life things were like I would have liked 
them to be, and at some point I came to understand that I 
needed to accept 100 percent responsibility of changing who I 
was if my life was going to be different. And I have really 
come to believe that just being born in this country is winning 
the biggest lottery that any of us could ever hope to win.
    And even though I was an academic underachiever in school, 
because I was in the bottom one-third half of the class that 
made the top half possible, today, though, I have come to 
understand that knowledge is an incredible gift that we all 
have been given. And I went back and worked hard, and so 
despite not having an undergraduate degree, today I do have my 
master's degree from the John F. Kennedy School of Government 
at Harvard University. And even though, throughout my life, I 
have had tough times, I have never given up.
    I started my own business when I was age 19. By the time I 
was 21 I had all the Sears accounts and J.C. Penney business in 
the city of Chicago, as well as every major retail florist, as 
I was a wholesale florist. And throughout my lifetime I have 
created over 18,000 new jobs here in America.
    My last business, Famous Dave's of America, my barbecue 
company, was actually started on the boundary of the Lac Courte 
Oreilles Reservation, so I have been able to prove that it 
doesn't matter where you are born, it doesn't matter what you 
have been through. The only thing that matters in this great, 
incredible country that we live in, if you hold true to your 
dreams and you follow your dreams, and you never quit, that you 
can accomplish some incredible things, because today Famous 
Dave's has restaurants from here in Washington, DC all the way 
to the Rockies. Our restaurants average between $2.5 million to 
$5 million yearly. We will have a run rate of over $200 million 
in annual sales. And we have an additional 100 restaurants 
signed up, ready to be built.
    And so today I appear here before you as a sober person, 
even though I spent much of my younger years as a drinking 
person. And I am not embarrassed to admit to these things 
publicly because I really believe that leaders like myself need 
to stand up, and we need to be able to say to our communities 
that we can overcome these debilitating things that are 
ravishing our people. And even though it was difficult for 
myself, I am thankful for a family that believed in me. And my 
parents, when I was younger, every night before I went to bed, 
would tell me that, they would say, son, we believe in you, we 
are proud of you, and no matter what happens we will support 
you, and throughout whatever happens in your day, we want you 
to know that your mom and dad are always praying for you. And 
those are incredible words to be said to me as a young person, 
and I think if young people all across America would have those 
things said to them, that many of the heartaches that we face 
would be met with resolve and hope, because I really believe 
that today it isn't that the Federal Government is non-
responsive or that the BIA is inefficient. I really believe 
that the reasons why we have the things that we face on our 
reservations, the high alcoholism rates, the dropout rates, the 
high suicide rates, these are really symptoms of young people 
growing up without hope. And this is where I hope that with all 
the other very important things that we have to be accountable 
for and be responsible for, I hope that my story can impact the 
youth of tomorrow, because they will be our next leaders.
    And so today I stand here before you as a grateful and 
humble person. I feel that my life story of achievement, as 
well as failure, can serve both as a testament to the resolve 
of native people, but also to provide encouragement, because we 
have seen tremendous improvement over the last few years of our 
people. And I am excited and encouraged to be part of this, and 
I just want to thank all of you for giving me this chance and 
for considering me as the next Assistant Secretary.
    Thank you.
    [Prepared statement of Mr. Anderson appears in appendix.]
    The Chairman. Thank you, Dave. You have certainly learned 
some real life experiences, going through some tough times, as 
many Indian children have in their young lives. I am reminded, 
though, that Abraham Lincoln once said I am not concerned that 
you fall, I am concerned that you rise; and you certainly have 
by picking yourself up and dusting yourself off, and through 
determination and perseverance have been a huge success in the 
private sector, and we wish you well.
    I have some questions, as do some of the other committee 
members, but Senator Murkowski from Alaska has joined us.
    Did you have any kind of opening statement before I proceed 
with questions?
    Senator Murkowski. Thank you, Mr. Chairman.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. If I can just make a small statement and 
comment, I am not going to be able to stay, so if it can be 
just brought up now.
    Mr. Anderson, I appreciate hearing your personal story of 
opportunity and hope. And as the chairman has indicated, you 
serve as a wonderful role model and good example. You speak of 
the hardships that Native Americans have, but the opportunities 
that can present themselves if you believe, and I appreciate 
your sharing that with us this morning.
    As you know, in my State of Alaska we have some very 
serious challenges that face our native people. You mentioned 
some of the problems associated with alcohol and drug abuse, 
suicide rates, and fetal alcohol syndrome. We are not unique in 
our State with these problems. I think we are unique, however, 
with the extent to the problems. And so as we deal with the 
challenges, we look forward to working with you on that.
    I would like to take an opportunity to call your attention 
to a program that would deserve your immediate attention in 
your new role, and that is the Indian Reservations Road 
Program. We had heard testimony several months back from 
Loretta Bullard, who is the executive director of Kawerak, one 
of our regional tribal consortia in Alaska. And Loretta had 
expressed some concerns with regards to the road inventory, the 
real inventory of Indian reservation roads in Alaska. And what 
passes for the Alaska inventory is grossly inadequate. Second, 
she indicated that the Bureau is arbitrarily rejecting requests 
from the Alaska tribes to add road miles to the inventory. We 
will certainly make available to you a copy of Loretta's 
testimony if you have not already read it.
    But I would urge you to really take an opportunity to get a 
handle on the Indian reservation roads program to make sure 
that the benefits of this program are equitably enjoyed 
throughout Indian country. I know that there are other tribes 
that are equally concerned about it and about the management, 
and would hope that you would be able to take a fresh look at 
it.
    And having said that, Mr. Anderson, I commend you for your 
willingness to take on this significant challenge, and wish you 
a speedy confirmation.
    Mr. Anderson. Thank you.
    The Chairman. Well, Dave, you just heard your first 
problem, and we haven't even voted on your nomination yet.
    Senator Murkowski. I wanted to take the opportunity there.
    The Chairman. If you can solve those, I think we may build 
a statue to you, I tell you.
    Well, anyway, let me ask a few and then I will turn to 
Senator Inouye.
    You have had some wonderful successes, and you know the 
tribes face many obstacles. You have worked with your own 
tribe, who is a rather successful tribe. From the tribes' 
perspective, what do you believe are the most pressing issues 
that you would like to address once you are confirmed?
    Mr. Anderson. Well, I think every tribal government has a 
list of important issues, of which I look forward to being able 
to go out and meet with tribal representatives or tribal 
leaders. I think, though, from my own standpoint, I believe 
there are two areas that I can really impact today, and that is 
the youth of our native lands. I also feel that I can also 
provide some guidance in the areas of economic development. I 
really believe that it isn't just developing programs where we 
can build buildings, fill our buildings with inventory, and 
then hang signs and then open them up for business that is 
going to allow us to be successful. I think we need to address 
the mental health of our people so that we have young Indian 
people growing up with the belief that they can achieve, that 
they can be successful in business, because a lot of times when 
we are out there pressing the needs for economic development, 
we take people who come from disparity and from touch economic 
conditions, and many times these people don't even believe that 
they can be successful.
    So I feel that a lot of the problems that we face today can 
be resolved as a group, as a whole, if we were to take a 
positive approach, that we start becoming solution-conscious, 
not problem-conscious; that all of us working together can 
overcome the things that we have been faced with in the past. 
And I believe that is what this American dream is all about, 
because in my own life, when I was blameful of other things, 
when I was blameful of my heritage, that is when I had the 
toughest time. But once I took responsibility for myself, then 
I started to realize that I was able to hold my future in my 
own hands, and by working hard and by believing positively 
things were able to turn around.
    So I believe that if I can serve as a role model to Indian 
country, I really believe that we can approach the things that 
are against us with a positive attitude and we can overcome 
those things. I have seen tremendous success in the last few 
years by a number of tribes that have taken positive 
approaches, and they have resolved some tough things, so I 
really believe those are important issues that we need to take 
a look at, Senator.
    The Chairman. You have had just a wonderful success in job 
creation, which is really important with all tribes now. Some 
of tribes have unemployment rates of 70 percent or higher. I 
don't know of any that have less than 40 or 50 percent. But one 
of the problems I think we have faced over the years, you know, 
in the last 100 years many tribes have become what I call in a 
position of forced dependency; they lost their traditional ways 
and, little by little, they were forced to be more and more 
dependent on the Federal Government for help. And sometimes I 
think that has created the attitude on reservations that the 
way of job creation is that you get a Federal grant and that 
creates jobs. You have proven the private sector way of the 
free enterprise system and certainly proved it works well, that 
it is not the Government that creates jobs, that really the 
best jobs are created in the private sector.
    I note in the notes I have, too, that you have had some 
experience negotiating gaming compacts and are, in fact, an 
investor in a gaming business. Could you share with the 
committee your views on gaming as a development tool? Some are 
not doing well, as you know, in gaming; some are doing very 
well and have learned how to diversify and use some of the 
profits for other job creation. Tell the committee your views 
on it.
    Mr. Anderson. Well, as you said, I think some tribes are 
doing very well and some tribes are still struggling, even 
though gaming is part of their economic opportunity. Gaming is 
like any other business opportunity, you need to have positive 
goal-driven thinking people in there running it; you need to be 
in a place of good location for it to be successful. But like 
anything else that we are faced with in Indian country, I 
believe that we have to manage those resources appropriately, 
and hopefully that it isn't that we don't take this gift that 
we have been blessed with in the last few years and let our 
people have an easy way.
    I think that gaming is only an opportunity that should be 
used as a stepping stone, and that as tribes we need to use it 
as a beginning, as a developing point so that we can go on and 
invest in other areas. I think my own life, like most young 
native people, gaming was one of my only opportunities, and 
once I was involved in it, I also realized, though, that wasn't 
exactly where I wanted to have my sons think that is all where 
I hung my hat in life, and so I went out and diversified and 
became successful in the restaurant business.
    But I think as tribes, you know, when I have talked to 
other Indian people and I asked them about what they would like 
to grow up to be, they would tell me that they would like to 
get out of school and then go to work in the casino. And 
hopefully today I hope that we can change that around so we can 
get our young people to say that I would like to learn how to 
be an accountant and work in that casino, or I would like to 
learn how to be a cook and work in that casino; but that we 
would actually use these opportunities to learn meaningful 
occupations, meaningful vocations that, if gaming was no longer 
around, that we would learn the difference between employment 
and employability.
    So today I think that gaming has presented an opportunity 
to our tribes that we have never had before. I have seen tribes 
that, prior to gaming, such as the Mille Lacs Tribe, which I 
worked with, were very dependent upon the Federal Government, 
had substandard school systems, but today they have flourished. 
They have wonderful school systems, they have built hospitals 
and clinics, they have built a wonderful infrastructure and 
really have become a very meaningful part of the community.
    So I think that, to answer your question, that gaming has 
provided an important opportunity, but it is an opportunity 
that should only be used as a stepping stone.
    The Chairman. Thank you. I happen to be a supporter of 
Indian gaming, as a vehicle for job creation and a number of 
other things. Let me maybe talk about that or ask you about 
that a little bit.
    From 1991-95 you were the vice president of Grand Casinos 
and are still a shareholder in a gaming company called Park 
Place Entertainment, is that correct?
    Mr. Anderson. I was one of the original founders of Grand 
Casinos. I did leave that company back in, I believe, 1995 or 
1996. I am no longer involved in that company. The shares that 
I hold are in Park Place Entertainment, but I will assure you, 
as I have met with the Ethics Committee, that I will be 
disposing of those shares upon my confirmation. And regarding 
any of those matters, I have also told them that I would recuse 
myself from any decisions regarding them.
    The Chairman. And the Ethics Committee explained pretty 
carefully to you about any potential conflicts of interest?
    Mr. Anderson. I have been very well aware of that.
    The Chairman. Thank you.
    All right, I would like to ask Senator Inouye if he has 
further questions.
    Senator Inouye. Mr. Anderson, as you have eloquently 
pointed out, a matter of major concern in Indian country is the 
loss of hope by the young, the loss of self-identity and the 
loss of pride. Your stories of success and of failure, and how 
you dug out from failure into success again, should serve as an 
inspiration for many of these young men and women, but we have 
other problems that go slightly beyond that, such as 
sovereignty and trust reform. A matter of major concern to this 
committee at this moment is trust reform, and a question 
evolves around should we use moneys from other activities in 
Indian country to fund this trust reform, or should we use new 
money from the general treasury to fund trust reform. Do you 
have any thoughts on that?
    Mr. Anderson. Senator, at this point in time I am aware of 
the issues; however, I am not really totally familiar with all 
the facts that surround this subject. But I can assure you that 
I will be working with you and your staff and this Senate 
committee to decide what is the best avenues for that. So I 
respectfully, at this time, it would be best for me not to say 
too much.
    Senator Inouye. You need not be apologetic. We have been 
working on this for nearly 100 years, and we are still looking 
for this elusive answer, but we will find it somehow.
    The other question is the general concept of sovereignty, 
which is immensely important to Indian country. Once you lose 
sovereignty, the Indian identity disappears. And I hope that we 
can work together to do whatever we can to protect Indian 
sovereignty.
    Mr. Anderson. Well, in my mind we never lose sovereignty. 
We may have it taken from us, but as America's first people, I 
will assure you that I am a supporter and I feel that I will do 
everything in my power to protect the sovereignty that as 
native people that we have always had.
    Senator Inouye. Thank you very much, Mr. Anderson.
    Mr. Chairman, any time you are ready, I am ready.
    The Chairman. Senator Thomas, did you have any questions 
before we go on?
    Senator Thomas. Well, I am about ready too. Certainly all 
of us would agree with the concepts you talk about, causing 
people to have more hope and more interest. But you are going 
to be running a bureau, a bureaucracy, and you are going to be 
talking about specifics. What do you think are the most 
important kinds of changes you could make in BIA, for example, 
to bring about the things you talk about?
    Mr. Anderson. Well, I think I have been successful in my 
business career because I have understood right from day one 
that it doesn't matter what I do in the home office, what 
really matters is what happens out there in the restaurants. 
The people that are belly-to-belly with the customers are the 
most important people in any organization. And I think that, 
being successful in business, one of the things that I will be 
bringing to this position is communication. I will be out in 
the field working with tribal leaders; I will be out in the 
field working with the 10,000-plus BIA employees. And it is 
really these people that know more about what is going on out 
there than I ever hope to be, so I look forward to not only 
working with the Senate Committee on Indian Affairs, but also 
Indian organizations that are throughout Indian country, and 
with the various tribal organizations and tribal leaders, and 
being able to communicate with them. So hopefully through 
communication we can better understand on all sides the issues 
that we are faced with.
    Senator Thomas. Well, I certainly agree, in that you are 
going to have a great number of different reservations and 
different groups to deal with, all of whom have some different 
ideas. For example, irrigation and water development in the 
west is very critical to the reservations that depend on 
natural resources for their economy. But we talk about all the 
success, but there aren't opportunities on many of the 
reservations, and many are reluctant to leave the reservation, 
so, you know, your experience has been pretty unique, and you 
are going to have to deal with lots of folks who are less 
willing to take those chances than you have been. And so I 
certainly wish you well. I agree with your concept, but it is 
going to have to be more than a concept; you are going to have 
to put it into place with many other people assisting in order 
to have an impact.
    Mr. Anderson. Well, I am hoping that the tribes support me. 
This is something that I can't do myself, and something that, 
you know, a long time ago, when I started to work on who I was, 
one of the things I realized was that I had to get done being 
full of Dave Anderson. If things were going to be different, I 
needed to ask for help. And so I have no problem being able to 
ask for help on things that I am not familiar with.
    Senator Thomas. I think that is very important also. When 
we talk about wanting to move to certain areas, it seems to me 
in order to do that you have to kind of clarify what you think 
the reasons are that hasn't happened. So I wish you well and 
certainly look forward to working with you.
    Mr. Anderson. Thank you, Senator.
    The Chairman. Thank you.
    [Whereupon, at 11 a.m., the committee proceeded to further 
business.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Audrey Bennett, President, Prairie Island Indian 
                               Community

    Good afternoon Mr. Chairman and members of the committee. My name 
is Audrey Bennett, and I'm president of the Prairie Island Indian 
Community. We are a Minnesota tribe located along the banks of the 
Mississippi River, in the southern part of the State.
    It is an honor to be here on behalf of our tribal council and 
tribal membership to speak in support of President Bush's nomination of 
David Anderson to the position of assistant secretary, Bureau of Indian 
Affairs.
    In addition to serving our tribal community as its president, I am 
treasurer of the National Indian Gaming Association and the immediate 
past chair of the Minnesota Indian Affairs Council. I have been 
involved in tribal politics much of my adult life and I know full well 
the challenges we as native peoples face in this country.
    Our cultures are eroding with the passing of time. Land issues 
threaten our senses of community and many tribes continue to struggle 
for economic development capable of sustaining their governments. And 
many of our children are not getting the education they need to succeed 
in this world, while others are succumbing to today's most sinister 
social ills.
    The BIA, for all its faults, remains a critical resource for 
addressing and helping meet these challenges. As such, the BIA is 
deserving of leadership that reflects its significance and the 
magnitude of the challenges at hand. We believe Mr. Anderson can 
satisfy this role and we fully support his nomination.
    Throughout his life, Mr. Anderson has pursued the American dream 
for his family and his people. Along the way he has experienced 
numerous personal and professional setbacks, but they only sharpened 
his resolve. In this way his life is quite similar to the struggles and 
triumphs of Indian people throughout this country. He is a testament to 
what can be accomplished through hard work and dedication and he is an 
inspiration to our young people.
    As a Minnesota tribe, we have witnessed many of Mr. Anderson's 
accomplishments. We have seen first hand his commitment to improving 
the lives of Native Americans on and off the reservation. To this day 
he can be found offering guidance to Native American teens at the Life 
Skills Center for Leadership in Minneapolis, an organization he founded 
and helps finance.
    His work in tribal gaming helped build the foundations on which a 
number of tribal communities throughout the country now are beginning 
to thrive, including the Mille Lacs Band of Ojibwe and the Lac Courte 
Oreilles Tribe where he is an enrolled member and a former CEO. His 
success with the Lac Courte Oreilles was heralded by President Reagan's 
Commission on Indian Reservation Economies.
    As an entrepreneur, Mr. Anderson has demonstrated a keen insight 
for business, substantiated by his more than 80 Famous Dave's 
restaurants spanning some 20 States. Today, in Minnesota and in many 
other places, his is virtually a household name.
    Mr. Anderson also is no stranger to public policy. He is a graduate 
of Harvard University's Kennedy School of Government. And he has served 
in numerous public service positions, including the Wisconsin Council 
on Minority Business Development, the National Task Force on 
Reservation Gaming, the Advisory Council for Tribal Colleges and 
Universities, and, most recently, the American Indian 
EducationFoundation.
    In a recent editorial, the St. Paul Pioneer Press described Mr. 
Anderson as a generous man, giving of his time and his fortune to help 
young native people and the broader community.
    That same editorial also questioned his thinking for wanting to 
take, what the paper described as one of the most challenging and 
complicated jobs in Washington.
    Perhaps it is rare to find someone with Mr. Anderson's blend of 
real world experience, education and desire to do good who is willing 
to take on what some believe is an impossible assignment.
    There is no question that leading the BIA is a formidable task, but 
it is not insurmountable--it can't be because there is too much at 
stake if we allow it fail.
    As a Washington outsider, we believe Mr. Anderson will bring a 
fresh perspective to numerous issues that have plagued the BIA for 
decades and relieve a source of frustration for tribes and numerous 
administrations alike.
    Mr. Anderson is worthy of this opportunity and capable of meeting 
the enormous challenge before him. We urge you to accept his nomination 
and confirm him to the position of assistant secretary, Bureau of 
Indian Affairs.
    Mr. chairman, members of the committee, thank you for this 
opportunity to testify in support of Mr. Anderson's nomination.
                                 ______
                                 

Prepared Statement of Louis Taylor, Chairman, Lac Courte Oreilles Band 
                   of Lake Superior Chippewa Indians

    Ladies and Gentlemen: My name is Louis Taylor. I am the tribal 
chairman of the Lac Courte Oreilles Band of Lake Superior Chippewa 
Indians. Accompanying me is Lac Courte Oreilles tribal vice chairman, 
Russell Barber, and Alfred Trepania. Mr. Trepania serves as president 
of the Great Lakes Inter-Tribal Council. The Great Lakes Inter-Tribal 
Council is an organization comprised of 11 member tribes of which Lac 
Courte Oreilles is a member. The organization's purpose is to assist 
its member tribes with preserving tribal sovereignty and achieving 
self-sufficiency and self-determination. Mr. Trepania is also a Lac 
Courte Oreilles tribal member and a former tribal chairman.
    The Lac Courte Oreilles Tribe is located in Northwestern Wisconsin 
near the Town of Hayward in Sawyer County. Our reservation is comprised 
of approximately 74,000 acres with the tribal membership at 5,531. Lac 
Courte Oreilles has the third largest membership of the 11 tribes in 
Wisconsin.
    Some of the services the Lac Courte Oreilles Tribe provides its 
community include a Head Start Program, K-12 School System, Community 
College, Road Construction and Maintenance, Fire Department, EMT 
Service, Social Services, Emergency Shelter, Halfway House, Public 
Radio Station, Medical Services, Elderly Nutrition Sites, and Youth 
Centers.
    Additionally, the Lac Courte Oreilles Tribe owns and operates a 
Cranberry Marsh, Grocery Store, Gas Station, Resort, Construction 
Company, Casino, and Credit Union.
    Although we have made some great accomplishments in recent years, 
largely due to a modest gaming establishment, there are still areas of 
significant need on the reservation. The family per capita income on 
the reservation in 1999 equaled $24,600 per year with the tribe's 
seasonably adjusted unemployment rate at 20 percent. With over 
20percent of the children on the reservation living in poverty, there 
is still plenty to do and we are constantly looking for new areas of 
economic development.
    Contrary to popular belief, our tribe and many other tribes do not 
distribute per capita payments to its members as we are almost always 
operating with a budget deficit and rely on grant moneys in order to 
provide basic services and jobs for our tribal members. Even with our 
ongoing challenges, there has been steady growth at Lac Courte Oreilles 
and we will continue our efforts for the benefit of our tribal members 
and generations to come.
    The Lac Courte Oreilles Tribal Governing Board is the governing 
body of the Band and I as chairman, am pleased that David Anderson has 
been nominated by President Bush to serve as the U.S. Department of the 
Interior's Assistant Secretary for Indian Affairs. I am extremely proud 
that a tribal member of Lac Courte Oreilles has been nominated to serve 
the tribal governments and the United States in this important 
position.
    I am honored to be here today and would like to thank Chairman Ben 
Nighthorse Campbell and the U.S. Senate Committee on Indian Affairs for 
the invitation to speak.
[GRAPHIC] [TIFF OMITTED] 90177.001

[GRAPHIC] [TIFF OMITTED] 90177.002

[GRAPHIC] [TIFF OMITTED] 90177.003

[GRAPHIC] [TIFF OMITTED] 90177.004

[GRAPHIC] [TIFF OMITTED] 90177.005

[GRAPHIC] [TIFF OMITTED] 90177.006

[GRAPHIC] [TIFF OMITTED] 90177.007

[GRAPHIC] [TIFF OMITTED] 90177.008

[GRAPHIC] [TIFF OMITTED] 90177.009

[GRAPHIC] [TIFF OMITTED] 90177.010

[GRAPHIC] [TIFF OMITTED] 90177.011

[GRAPHIC] [TIFF OMITTED] 90177.012

[GRAPHIC] [TIFF OMITTED] 90177.013

[GRAPHIC] [TIFF OMITTED] 90177.014

[GRAPHIC] [TIFF OMITTED] 90177.015

[GRAPHIC] [TIFF OMITTED] 90177.016

[GRAPHIC] [TIFF OMITTED] 90177.017

[GRAPHIC] [TIFF OMITTED] 90177.018

[GRAPHIC] [TIFF OMITTED] 90177.019

[GRAPHIC] [TIFF OMITTED] 90177.020

[GRAPHIC] [TIFF OMITTED] 90177.021

[GRAPHIC] [TIFF OMITTED] 90177.022

[GRAPHIC] [TIFF OMITTED] 90177.023

[GRAPHIC] [TIFF OMITTED] 90177.024

[GRAPHIC] [TIFF OMITTED] 90177.025

[GRAPHIC] [TIFF OMITTED] 90177.026

[GRAPHIC] [TIFF OMITTED] 90177.027

[GRAPHIC] [TIFF OMITTED] 90177.028

[GRAPHIC] [TIFF OMITTED] 90177.029

[GRAPHIC] [TIFF OMITTED] 90177.030

[GRAPHIC] [TIFF OMITTED] 90177.031

[GRAPHIC] [TIFF OMITTED] 90177.032

[GRAPHIC] [TIFF OMITTED] 90177.033

[GRAPHIC] [TIFF OMITTED] 90177.034

[GRAPHIC] [TIFF OMITTED] 90177.035

[GRAPHIC] [TIFF OMITTED] 90177.036

[GRAPHIC] [TIFF OMITTED] 90177.037

                                 <all>

</pre></body></html>
